<html>
<title> - FEDERAL INTERAGENCY DATA-SHARING AND NATIONAL SECURITY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
          FEDERAL INTERAGENCY DATA-SHARING AND NATIONAL SECURITY
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2001

                               __________

                           Serial No. 107-100

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform






                       U. S. GOVERNMENT PRINTING OFFICE
81-594                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Jr., Tennessee           (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 ------ ------
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2001....................................     1
Statement of:
    Swartz, Bruce C., Deputy Assistant Attorney General, Criminal 
      Division, U.S. Department of Justice; Bruce Townsend, 
      Special Agent in Charge, Financial Crimes Division, U.S. 
      Secret Service; Catherine Barry, Director, Consular Affairs 
      Visa Services, accompanied by John Brennan, Visa Office, 
      Interagency and Systems Liaison Division, U.S. Department 
      of State; and Colonel Mike Deacy, USAF, Assistant Deputy 
      Director, Information Engineering, Defense Information 
      Systems Agency.............................................     5
Letters, statements, etc., submitted for the record by:
    Barry, Catherine, Director, Consular Affairs Visa Services, 
      prepared statement of......................................    30
    Deacy, Colonel Mike, USAF, Assistant Deputy Director, 
      Information Engineering, Defense Information Systems 
      Agency, prepared statement of..............................    46
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Swartz, Bruce C., Deputy Assistant Attorney General, Criminal 
      Division, U.S. Department of Justice, prepared statement of     9
    Townsend, Bruce, Special Agent in Charge, Financial Crimes 
      Division, U.S. Secret Service, prepared statement of.......    22


         FEDERAL INTERAGENCY DATA-SHARING AND NATIONAL SECURITY

                              ----------                              


                         TUESDAY, JULY 24, 2001

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Gilman, Otter, and 
Kucinich.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Robert Newman and Thomas Costa, professional staff 
members; Alex Moore, fellow; Jason M. Chung, clerk; Kristin 
Taylor, intern; David Rapallo, minority counsel; Earley Green, 
minority assistant clerk; and Teresa Coufal, minority staff 
assistant.
    Mr. Shays. Good morning.
    In 1996, President Clinton declared international crime a 
threat to national security and ordered Federal agencies to 
integrate and coordinate their efforts against global crime 
syndicates. In response, the Department of Justice [DOJ], 
launched the Anti-Drug Network/Nigerian Crime Initiative, 
referred to as ADNET/NCI, the first data-sharing project 
allowing all participating Federal law enforcement agencies to 
pool active criminal case information on a secure network, 
computer network.
    It was hoped this initiative would help meet the threats of 
money laundering, narcotics trafficking and terrorism, and 
serve as a prototype for more efficient data base coordination 
and cooperation. But now it appears that the ADNET/NCI project 
has lost momentum, falling prey to jurisdictional disputes, 
unresolved legal issues, bureaucratic inertia, budget 
constraints and personnel turnover. A key leadership position 
in the program has been vacant for months. What were once 
regular working group meetings have become sporadic. A number 
of ADNET/NCI task force sites appear to lack agency support.
    During our hearing last April on protecting American 
interests abroad, witnesses said they saw a need for more 
frequent, more accurate and more timely data exchanges between 
Federal agencies to keep pace with the dynamic criminal and 
terrorist threats to U.S. citizens and corporate facilities. In 
this hearing, we ask whether ADNET/NCI or a program like it can 
meet that need. And we ask what legal organizational and fiscal 
barriers stand in the way of broader, more effective data-
sharing.
    Strengthening national security, particularly border 
security against dispersed but deadly criminals and terrorists 
requires interagency cooperation and coordination on an 
unprecedented scale. Data matches between Federal agencies 
today are often the product of good luck and the happenstance 
of personal relationships. The modern threat demands a more 
systematic collection and dissemination of the information 
needed to identify suspects or prevent felony criminals from 
entering the United States, consistent with the privacy rights 
and the protection of civil liberties.
    Joining us today are representatives from the Department of 
Justice, the Secret Service, the Defense Information Systems 
Agency and the Department of State to describe the status of 
interagency data-sharing and discuss the obstacles they face in 
using information technology to enhance national security.
    The subcommittee appreciates, truly appreciates, the 
contributions of our witnesses today and we look forward to 
their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 81594.001
    
    [GRAPHIC] [TIFF OMITTED] 81594.002
    
    Mr. Shays. We have one panel today. Our panel consists of 
four participants: Bruce Swartz, Deputy Assistant Attorney 
General, Criminal Division, U.S. Department of Justice; Mr. 
Bruce Townsend, Special Agent in Charge of the Financial Crimes 
Division, U.S. Secret Service; Ms. Catherine Barry, Director, 
Consular Affairs Visa Services, U.S. Department of State; and 
Colonel Mike Deacy, U.S. Air Force, Assistant Deputy Director, 
Information Engineering, Defense Information Systems Agency.
    And as you are aware, we swear in our witnesses. We invite 
you to stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. I will note for the record that all of our 
witnesses have responded in the affirmative. I think what we 
will do is, we'll take you in the order that I called you.
    And so you understand, the clock, we do 5 minutes and then 
roll over into the next 5 minutes. That is acceptable. If you 
get to the second red light, all hell breaks loose.

   STATEMENTS OF BRUCE C. SWARTZ, DEPUTY ASSISTANT ATTORNEY 
 GENERAL, CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE; BRUCE 
 TOWNSEND, SPECIAL AGENT IN CHARGE, FINANCIAL CRIMES DIVISION, 
   U.S. SECRET SERVICE; CATHERINE BARRY, DIRECTOR, CONSULAR 
   AFFAIRS VISA SERVICES, ACCOMPANIED BY JOHN BRENNAN, VISA 
    OFFICE, INTERAGENCY AND SYSTEMS LIAISON DIVISION, U.S. 
 DEPARTMENT OF STATE; AND COLONEL MIKE DEACY, USAF, ASSISTANT 
 DEPUTY DIRECTOR, INFORMATION ENGINEERING, DEFENSE INFORMATION 
                         SYSTEMS AGENCY

    Mr. Swartz. Thank you, Mr. Chairman. With that warning in 
mind, I would like to submit my statement for the record with 
the subcommittee's permission.
    Mr. Chairman, I appreciate the opportunity to testify this 
morning on behalf of the Department of Justice on the issues of 
interagency data-sharing and national security. My testimony 
this morning focuses on two distinct but interrelated topics, 
the Nigerian Organized Crime Initiative and ADNET, the Anti-
Drug Network. We'll turn first to the Nigerian Organized Crime 
Initiative.
    Mr. Chairman, as you noted in your opening statement, the 
Nigerian Organized Crime Initiative is part of the Federal law 
enforcement response to international organized crime. As the 
subcommittee is well aware, international organized crime is a 
rising threat to U.S. citizens. It reaches out and touches 
American citizens in a number of ways.
    International organized crime has drawn upon the forces 
that have made globalization possible, including advanced 
telecommunications networks of travel and means of moving 
quickly from one country to another. In recognition of this, 
again as you recognized, Mr. Chairman, in your opening 
statement, PDD-42, has denominated international organized 
crime not simply as a law enforcement problem, but as a 
national security threat.
    Mr. Shays. Can you suspend a second?
    Can I ask if you can hear in the back? It might be such a 
good system it does not sound like a system. Sorry to 
interrupt.
    Since I have already interrupted you, let me just welcome 
Mr. Kucinich. And I think you have a statement that you would 
like submitted for the record.
    And if I you don't mind, as well, I am going to--to just 
take care of two business issues so I don't forget them. I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record, and that 
the record remain open for 3 days for that purpose. Without 
objection so ordered.
    As for procedures, now that all witnesses be permitted to 
include their written statements. Without objection, so 
ordered.
    Mr. Swartz, sorry to interrupt you. But you have the floor 
again.
    Mr. Swartz. Then let me turn back to PDD-42.
    Mr. Shays. Sure.
    Mr. Swartz. That decision directive required that Federal 
law enforcement consider more interagency data-sharing, think 
how they could work together, how national law enforcement can 
work together more effectively. One part of the response to 
that directive was the creation of the Nigerian Organized Crime 
Initiative.
    I want to emphasize from the outset that the focus of this 
initiative is not, of course, on the millions of law-abiding 
Nigerians both in this country and abroad. Rather, the focus is 
on Nigerian criminal groups that now dominate crime emanating 
from West Africa.
    Crime arising from those Nigerian criminal enterprises has 
escalated over the past decade. Those criminal groups are 
polymorphic in nature. They engage in a wide range of crimes 
ranging from narcotics trafficking to alien smuggling to 
financial crime. Because of the wide range of their criminal 
activities, and the shifting membership of their groups, their 
loose affiliations, a number of Federal law enforcement 
agencies are involved in the response to Nigerian organized 
crime.
    As Mr. Townsend of the Secret Service will explain in 
greater detail, since the late 1980's, the U.S. Secret Service 
has sponsored a number of task forces to respond to the problem 
of financial crime that is committed by Nigerian organized 
crime groups.
    In 1996, following PDD-42, the Department of Justice, the 
Department of Treasury and the Department of State, along with 
the U.S. Postal Service, began to work together to develop the 
Nigerian Organized Crime Initiative. The principal components 
of that initiative are: interagency and multilateral task 
forces to investigate Nigerian organized crime both here and 
abroad; second, coordinated efforts to educate the public as to 
Nigerian organized crime, particularly financial crime; and, 
third, increased data-sharing among the Federal law enforcement 
agencies involved in the fight against Nigerian organized 
crime, including data-sharing through electronic computerized 
means on ADNET wanted the subcommittee's permission.
    I'll now turn to the second topic that we are visiting this 
morning, ADNET, which is the Anti-Drug Network. As the 
subcommittee is aware, ADNET is a secure network administered 
by the Defense Information Services Agency [DISA], on DISA's 
Defense Information Systems network.
    ADNET was established pursuant to the Defense Authorization 
Act of 1989 for purposes of integrating the command, control, 
communications, and technical intelligence aspects of the 
United States dedicated to the interdiction of illegal drugs.
    ADNET thus preexists and predates the Nigerian Organized 
Crime Initiative, and its scope extends beyond that initiative. 
By the same token, the Nigerian Organized Crime Initiative 
extends beyond ADNET. They are, if you will, two noncongruent 
circles that intersect at a certain point, that point, the area 
of overlap, is the use of ADNET for the use of electronic 
sharing of information involving Nigerian organized crime 
groups.
    But, again, it is important to recognize that the 
initiative and ADNET exist independently of each other.
    In April 1998, former Attorney General Reno requested that 
DISA agree to create, as a pilot project, the use of ADNET to 
share information involving Nigerian organized crime groups. It 
was envisioned that ADNET would serve as a secure means of 
exchanging information in the data bases of the various law 
enforcement agencies fighting Nigerian organized crime, to 
share, to communicate with each other as to the investigations 
they are conducting.
    That network has grown significantly since its inception. 
Currently, ADNET has more than 1.5 million records involving 
Nigerian organized crime in its data base. That is drawing from 
15 distinct data bases supplied by eight Federal agencies; 331 
agents and other personnel have been cleared for access to 
these records.
    A total of 16 ADNET network stations have been installed in 
six of the interagency task force offices, as well as there are 
two locations abroad now that have ADNET terminals that are 
supported by the Nigerian Crime Initiative, one in Ghana and 
one in Nigeria.
    There are another 15 ADNET terminals in place in agency 
headquarters and various law enforcement field offices. At the 
current time, this system, that is, the Nigerian records system 
on the ADNET, receives approximately 1,000 queries per month as 
of this current year.
    The chairman's letter to the Department of Justice asked 
for reports regarding the success of the ADNET/NCI, Nigerian 
Crime Initiative. This is a difficult topic to address simply 
because the use of ADNET and the exchange of information varies 
significantly from agency to agency depending upon their needs 
at a particular time.
    Nonetheless, it is important to recognize that the Nigerian 
Organized Crime Initiative as a whole has registered a number 
of significant successes, in part because of the interagency 
data-sharing that has gone forward both through ADNET and other 
means. And Mr. Townsend will, I think, report on some of the 
successes that task forces and other portions of the combined 
initiative have tallied thus far.
    We have also been asked to comment on the Department of 
Justice's plans for the future of the ADNET Nigerian Organized 
Crime Initiative in regard--again, it is important to 
distinguish between the Nigerian Organized Crime Initiative and 
ADNET; both must be assessed independently.
    The Nigerian Organized Crime Initiative, again, as I have 
said previously, has, we believe, scored significant successes. 
That initiative is broader than the use of ADNET and will 
certainly continue in its use of task forces and information 
sharing.
    Similarly, ADNET, again as I have pointed out, is broader 
than the initiative itself. And the use of ADNET for law 
enforcement purposes also will continue, both, we believe, 
within the initiative itself and outside of that initiative, 
since ADNET provides a secure means for law enforcement 
agencies to communicate with each other and provides a means 
for accessing other law enforcement data bases that are 
preexisting.
    The administration will consider what steps are appropriate 
next to take with regard to the Nigerian Organized Crime 
Initiative and its use of ADNET. The possibilities include an 
expanded use of ADNET not only for Nigerian organized crime, 
but possibly for other organized crime activities.
    Alternatively, there is the possibility of the use of ADNET 
as more of a pointer or index system. Instead of creating case 
data bases in each agency that can be accessed by ADNET, which 
is very resource-intensive, to try to use more easily uploaded 
sets of documents to make ADNET a means of having a broader 
index system.
    The Department will be happy to report back after that 
review has taken place.
    Finally, we have been asked to talk some on the legal and 
other options----
    Mr. Shays. We'll come back. You have had 10 minutes.
    Mr. Swartz. Thank you.
    Mr. Shays. I think you were curious to see what would 
happen with the red light. I was sure that you wouldn't point 
out that I was a fraud.
    I also like put the fear in you. It accomplished nothing.
    Mr. Swartz. No. I am very fearful actually.
    [The prepared statement of Mr. Swartz follows:]
    [GRAPHIC] [TIFF OMITTED] T8594.003
    
    [GRAPHIC] [TIFF OMITTED] T8594.004
    
    [GRAPHIC] [TIFF OMITTED] T8594.005
    
    [GRAPHIC] [TIFF OMITTED] T8594.006
    
    [GRAPHIC] [TIFF OMITTED] T8594.007
    
    [GRAPHIC] [TIFF OMITTED] T8594.008
    
    [GRAPHIC] [TIFF OMITTED] T8594.009
    
    [GRAPHIC] [TIFF OMITTED] T8594.010
    
    [GRAPHIC] [TIFF OMITTED] T8594.011
    
    [GRAPHIC] [TIFF OMITTED] T8594.012
    
    [GRAPHIC] [TIFF OMITTED] T8594.013
    
    Mr. Shays. Mr. Townsend.
    Mr. Townsend. Mr. Chairman, thank you for the opportunity 
to address the subcommittee on the subject of Federal 
interagency data-sharing and the Secret Service's role in the 
Anti-Drug Network/Nigerian Crime Initiative. I have prepared a 
comprehensive statement which will be submitted for the record. 
With the subcommittee's permission, I will summarize it at this 
time.
    Mr. Shays. Sometimes the summary is longer than the 
statement.
    Mr. Townsend. I will endeavor to make sure that is not the 
case.
    Mr. Shays. We want you to cover the territory, so you go 
ahead.
    Mr. Townsend. In addition to providing the highest levels 
of physical protection to our Nation's leaders, the Secret 
Service exercises broad investigative jurisdiction over a 
variety of financial crimes. As the original guardian of our 
nation's financial payment system, the Secret Service has a 
long history of pursuing those who would victimize our 
financial institutions and law-abiding citizens.
    In recent years, a combination of the information 
technology revolution and the effects of globalization have 
caused the investigative mission of the Secret Service to 
evolve in a manner that cannot be overstated.
    With the passage of the Omnibus Crime Control Act of 1984, 
the Secret Service was provided jurisdiction to investigate 
access device fraud. One of the first groups that the Secret 
Service identified as being heavily involved in this crime was 
a loosely organized criminal element within the growing 
Nigerian population in the United States.
    It is important to emphasize at the outset that despite the 
Nigerian criminal elements that now dominate crime emanating 
from West Africa, we in the Secret Service recognize that there 
are millions of law-abiding Nigerians at home and abroad whose 
rich tradition and culture we admire and whose contributions to 
our society we value.
    The democratically elected government that came to power in 
Nigeria in 1999 is keenly aware that the extensive involvement 
by Nigerians in financial scams carried out around the world 
and in the international drug trade creates not only enormous 
financial losses, but often feeds widespread, but unjustified, 
perceptions about Nigerians. Nigeria still retains many 
legitimate opportunities for business and investment; however, 
there are corporations around the world that are reluctant to 
deal with Nigerian companies for fear of becoming embroiled in 
fraudulent activity.
    Only by sharing our combined expertise and resources will 
we be able to effectively address the Nigerian organized crime 
problem that plagues us all.
    In the late 1980's, the Secret Service took a proactive 
approach to combating Nigerian organized crime by establishing 
and maintaining task forces throughout the United States whose 
main focus was the investigation of financial fraud committed 
by Nigerian nationals and their accomplices. Membership in 
these task forces included representatives from the U.S. 
Customs Service, the Immigration and Naturalization Service, 
the U.S. Postal Inspection Service, the DEA, the FBI, the IRS, 
the Department of State's Bureau of Diplomatic Security, bank 
investigators from the private sector, as well as numerous 
State and local law enforcement agencies.
    In May 1996, pursuant to PDD-42, a Federal law enforcement 
interagency working group was created to develop a domestic law 
enforcement strategy regarding Nigerian organized crime. The 
strategy that was developed targeted both domestic and 
international Nigerian criminal activity, and emphasized 
coordination of U.S. law enforcement, the sharing of 
investigative leads and information and enhanced cooperation 
with our foreign law enforcement counterparts to coordinate 
multinational cases and investigations.
    The proposed enforcement efforts of this strategy became 
known as the Nigerian Crime Initiative. The working group also 
proposed to utilize its computer data base to share Nigerian 
case data electronically. It was later agreed that the 
Department of Defense Information Systems Agency Anti-drug 
Network, ADNET, would be the mechanism for sharing this 
information.
    In an effort to take the fight against these criminal 
organizations to its source, on January 12, 1999, the Secret 
Service began a cooperative effort with the U.S. Embassy in 
Nigeria and the Nigerian National Police. The purpose of this 
effort was to provide operational, investigative and training 
assistance to the NNP and other Nigerian Federal law 
enforcement agencies. A task force was established in Lagos, 
Nigeria, that was initially staffed by two special agents of 
the Secret Service on rotating temporary assignments.
    Over the next 16 months, using information supplied by the 
11 domestic task force, the Secret Service assisted the NNP in 
executing search warrants at more than 100 suspected advance 
fee fraud plants around Lagos, which, in turn, resulted in 
nearly 200 arrests.
    The challenge we face is great, but the progress we are 
making against Nigerian criminal elements is positive, as is 
the commitment by the new democratically elected government in 
Nigeria to become a full partner in these efforts.
    Mr. Chairman, that concludes my prepared statement. I would 
be happy to answer any questions.
    Mr. Shays. Thank you, Mr. Townsend.
    [The prepared statement of Mr. Townsend follows:]
    [GRAPHIC] [TIFF OMITTED] T8594.014
    
    [GRAPHIC] [TIFF OMITTED] T8594.015
    
    [GRAPHIC] [TIFF OMITTED] T8594.016
    
    [GRAPHIC] [TIFF OMITTED] T8594.017
    
    [GRAPHIC] [TIFF OMITTED] T8594.018
    
    [GRAPHIC] [TIFF OMITTED] T8594.019
    
    Mr. Shays. Ms. Barry.
    Ms. Barry. Thank you, Mr. Chairman. It is a pleasure to be 
here today to comment on the efforts of the Bureau of Consular 
Affairs for the Department of State to use an enhanced 
interagency data-share. I have prepared a written statement, 
and with your permission, will submit it for the record and 
make a few oral remarks.
    Mr. Shays. Yes. Thank you.
    Ms. Barry. As you are well aware, sir, our visa workload 
overseas has grown steadily every year. In fiscal year 2000, we 
processed 413,000 immigrant visa cases and close to 10 million 
nonimmigrant visa cases. That resulted in issuing visas to the 
tune of 7.1 million and denying visas to 2.4 million 
applicants.
    The visa waiver program approved by Congress last year 
prevented this number from growing even higher. Data-share has 
become essential to us, keeping up with this growing workload 
and providing visa adjudication in an efficient manner.
    Using funding provided by the machinery to do visa fee, the 
Bureau of Consular Affairs installed modernized computers 
overseas for all visa functions, and we covered all of our 
operations worldwide by September 1999.
    Since that time, we have continued to improve our systems, 
both the hardware and software. This year, our most significant 
achievement was the replication of all visa data in Washington 
in a manner that can be accessed by the Bureau of Consular 
Affairs and consular officers overseas.
    One constant element of our efforts since 1999 has been to 
expand data-share with other agencies. Our Lookout System, 
known as CLASS-E, keeps growing, in part because of the data-
share agreements we have with other agencies. Our Lookout data 
base now has 5.7 million records.
    With regard to immigrant visa cases, we now share 55 
percent of our immigrant visa data with INS and Customs at 16 
ports of entry. Data on new cases is available to these 
agencies in less than an hour.
    The Bureau of Consular Affairs, INS and the Social Security 
Administration have recently reached an agreement to use 
immigrant visa data to ensure the secure issuance of Social 
Security numbers to new immigrants.
    With regard to nonimmigrant visa cases, earlier this month 
we began a pilot to share data on issued visas with INS ports 
of entry. The pilot program currently includes the INS 
operation at Newark Airport. For example, by looking at the 
photo in our data base, INS inspectors will be able to uncover 
imposters more quickly and effectively.
    We maintain dialog with analysts, especially those who work 
on antiterrorism or antiorganized crime projects to ensure that 
their hard findings are captured in an appropriate visa Lookout 
entry. We share with INS information on lost and stolen 
passports.
    And to sum up, in our view, the results of these efforts 
have been faster detection of fraud overseas, improved evidence 
and greater overall deterrence. We know there is always room 
for improvement; in this vein, we continue to improve the 
algorithms we use to define the search in the Lookout System on 
foreign names.
    The comments an adjudicating officer may make in an 
electronic record of a specific case will soon be available to 
consular officers at other posts, as well as to INS inspectors.
    The next projects in our horizon are a pilot program using 
facial recognition technology, enhanced data-share with the FBI 
on criminal alien records for which legislation would be 
required. We are talking to Customs about getting more data on 
serious violators. And with DEA we are discussing improving the 
timeliness of our connectivity.
    I would like to close by reiterating that the use and 
enhancement of data-share is and will remain a significant 
objective of the Bureau of Consular Affairs. We view data-share 
as a means of facilitating legitimate travel and improving 
border security, although our focus is a little different.
    Obviously, from my remarks, we are focused more on the hard 
findings rather than on the analytical side of the process.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Ms. Barry.
    [The prepared statement of Ms. Barry follows:]
    [GRAPHIC] [TIFF OMITTED] T8594.020
    
    [GRAPHIC] [TIFF OMITTED] T8594.021
    
    [GRAPHIC] [TIFF OMITTED] T8594.022
    
    [GRAPHIC] [TIFF OMITTED] T8594.023
    
    [GRAPHIC] [TIFF OMITTED] T8594.024
    
    [GRAPHIC] [TIFF OMITTED] T8594.025
    
    [GRAPHIC] [TIFF OMITTED] T8594.026
    
    [GRAPHIC] [TIFF OMITTED] T8594.027
    
    [GRAPHIC] [TIFF OMITTED] T8594.028
    
    [GRAPHIC] [TIFF OMITTED] T8594.029
    
    [GRAPHIC] [TIFF OMITTED] T8594.030
    
    [GRAPHIC] [TIFF OMITTED] T8594.031
    
    [GRAPHIC] [TIFF OMITTED] T8594.032
    
    Mr. Shays. Colonel Deacy.
    Colonel Deacy. Thank you, Mr. Chairman, for this 
opportunity to testify before your subcommittee. I have 
submitted a written statement for the record, and I will 
proceed now with brief oral remarks.
    Mr. Shays. Please move your mic a little closer.
    Colonel Deacy. I am Colonel Mike Deacy, Assistant Deputy 
Director for Information Engineering at the Defense Information 
Systems Agency [DISA], Department of Defense.
    The agency began in 1960 as a defense communications agency 
charged with consolidating the communications functions common 
to the military department at that time. In 1991, the name was 
changed to DISA, to reflect the agency's role in providing 
total information systems support to the Defense Department.
    The DISA commander is dual-hatted as Director, DISA, and 
Manager of the National Communications System. National 
Communications System is a confederation of 23 Federal 
departments and agencies in cooperation with 30 private 
companies responsible for the availability of a viable national 
security and emergency preparedness telecommunications 
infrastructure.
    The White House Communications Agency is also managed under 
DISA. The DISA Vice Director is dual-hatted as commander of the 
Joint Task Force Computer Network Operations.
    DISA is a Department of Defense combat support agency under 
the direction, authority and control of the Assistant Secretary 
of Defense for Command, Control, Communications and 
Intelligence. DISA provides reliable, flexible, affordable and 
effective communications and information systems support to 
warfighters, regardless of their location, mission, or the 
military service or allied nation with which they are 
affiliated.
    DISA plans, develops, supports command, control, 
communications, computer and intelligence and information 
systems that serve the needs of the national command 
authorities under all conditions during peace or war.
    DISA ensures the interoperability and integration of C4I 
systems. The Global Command and Control System is the premier 
command and control system in support of national command 
authorities, warfighting commanders in chief and joint task 
force commanders.
    The global combat support system interfaces, integrates and 
displays information from authoritative DOD-wide service and 
agency-sponsored combat support systems. The Defense 
Information System Network data networks include the 
unclassified but sensitive Internet Protocol Router network, or 
NIPRNet, and the Secret Internet Protocol Router network, 
SIPRNet. These two data networks provide the essential 
information necessary to conduct and support the full range of 
military operations.
    The Defense Message System is the ASD C3I designated 
messaging system for DOD and supporting agencies. The Defense 
Information infrastructure common operating environment is the 
foundation infrastructure for building interoperable C2 
systems.
    In partnership with the Defense Logistics Agency, we 
provide engineering support for the Joint Electronic Commerce 
Program office. This effort will make electronic commerce 
electronic business a reality between DOD and its commercial 
partners.
    We work closely with theatre and tactical command and 
control systems, allied C4 systems and those national and 
international commercial systems that affect DISA's mission.
    DISA Western Hemisphere, or WESTHEM provides world class 
information products and services to DISA customers in the 
Western Hemisphere and global systems management of deployed 
portions of the Defense Information System network.
    In partnership with the National Security Agency, we also 
provide engineering for the DOD public key infrastructure 
program.
    One of our assigned projects is the Anti-Drug Network, 
ADNET. Our ADNET office is located within the information 
engineering organization, the smallest of its nine divisions.
    DISA works two multi-agency projects for the law 
enforcement community as the technical agent for computers and 
communications. The first project, ADNET, serves the military, 
intelligence and law enforcement communities, sharing counter-
drug information at the secret collateral level.
    The second project supports the Nigerian Organized Crime 
Strategy of the Departments of Justice, State, Treasury and the 
U.S. Postal Service by assisting those organizations in the 
sharing of sensitive law enforcement information within a 
secret environment.
    ADNET is a component of our response to congressional 
tasking in the 1989 Defense Authorization Act. By taking 
advantage of the existing military command and control network 
used across the Department, ADNET expanded to serve 17 key 
detection and monitoring locations by early 1990, and totaled 
over 30 sites by 1991.
    There were a number of concerns cross the counter-drug 
community as this information sharing environment grew. We 
ensured that the Joint Staff validated each and every new site 
in the ADNET community of interest.
    In 1994, the executive office of the President, Office of 
National Drug Control Policy [ONDCP], sponsored the National 
Interdiction Command and Control Plan [NICCP]. The NICCP 
directed that, ``ADNET will be the primary communications 
interface for passing counter-drug command, control and 
tactically actionable information among the three intelligence 
centers.'' DISA supported this effort as it engineered upgrades 
to the overall networking environment.
    In 1995, ONDCP and the drug intelligence community, which 
includes defense law enforcement and foreign intelligence 
agencies, developed and signed the Interdiction Intelligence 
Support Plan. The support plan designated ADNET as the 
principal tool for sharing counter-drug intelligence among the 
interdiction centers/components and supporting drug 
intelligence community.
    The ISSP also tasked the ADNET program to initiate new 
forms of information sharing based on World Wide Web 
technology. DISA supported this effort and made possible 
quantities of data-sharing. Over 50 Federal entities are now 
members of the ADNET community and they operate from over 130 
sites worldwide.
    As for the second effort, from the Defense perspective, our 
support to the Nigerian Organized Crime Strategy is based on 
PDD-42, International Organized Crime, November 1995.
    In 1997, senior Justice Department representatives 
requested an enhancement in the ADNET model for information 
sharing to include hosting sensitive law enforcement data with 
access from nine Federal agencies.
    The agencies had no way to interconnect themselves across 
any other common network. As a Federal agency tasked to support 
PDD-42, DISA made it clear that while this could not be funded 
by Defense appropriations, DISA could support an innovative 
information sharing effort with funding by the participating 
agencies.
    Funding began in 1998, and DISA developed a distributed 
data base environment with query capability across the 
agencies, along with security controls.
    Once again, I thank you for the opportunity to appear 
before the subcommittee. I will answer any questions you have 
to the best of my ability and take questions for the record 
that are beyond my capability to respond to at this time.
    [The prepared statement of Colonel Deacy follows:]
    [GRAPHIC] [TIFF OMITTED] T8594.033
    
    [GRAPHIC] [TIFF OMITTED] T8594.034
    
    [GRAPHIC] [TIFF OMITTED] T8594.035
    
    [GRAPHIC] [TIFF OMITTED] T8594.036
    
    [GRAPHIC] [TIFF OMITTED] T8594.037
    
    [GRAPHIC] [TIFF OMITTED] T8594.038
    
    [GRAPHIC] [TIFF OMITTED] T8594.039
    
    [GRAPHIC] [TIFF OMITTED] T8594.040
    
    [GRAPHIC] [TIFF OMITTED] T8594.041
    
    [GRAPHIC] [TIFF OMITTED] T8594.042
    
    [GRAPHIC] [TIFF OMITTED] T8594.043
    
    [GRAPHIC] [TIFF OMITTED] T8594.044
    
    [GRAPHIC] [TIFF OMITTED] T8594.045
    
    [GRAPHIC] [TIFF OMITTED] T8594.046
    
    Mr. Shays. Thank you very much.
    Let me confess that when we talk about information systems, 
sometimes my eyelids start to go down a little bit, and I 
notice some of the people in audience, they start to--their 
heads start to droop.
    But I consider this a very, very important issue. And the 
logic that I take to this is, of course, we would want to share 
this information, subject to wanting to make sure that civil 
liberties aren't, you know, compromised and that data isn't 
compromised.
    Colonel Deacy, you said basically we had 13 sites, to go to 
30. I just want to be clear. That is the only--first off, how 
many sites are there? You told--now my understanding, Colonel, 
is there are only a few places that you can access information, 
correct?
    Colonel Deacy. No, sir. There are actually many places.
    Mr. Shays. OK. Then I misunderstand the concept in your 
document when--maybe that is when my eyes started to droop too 
low, my eyelids. What was the mention of sites? We talked about 
sites, and they----
    Colonel Deacy. Yes, sir. That is where I mentioned the 
initial starting number of sites.
    Mr. Shays. OK. You are going to have to talk a little bit 
louder. Hit that mic, just--I just dislike these mics, I guess.
    Colonel Deacy. Sir, the key is that there are 50 Federal 
entities that can access this data, which belong to us.
    Mr. Shays. Anywhere? The term--or are there only certain 
places where they can get this information?
    Colonel Deacy. There are only certain places.
    Mr. Shays. That is what my question was. How many places 
are there presently?
    Colonel Deacy. Sir, for a specific number, I will have to 
take that for the record. But, I believe it's in the range of 
130 locations.
    But let me take that for the record for a specific answer.
    Mr. Shays. All right. Well, when I am asking, the gentleman 
behind you was nodding his head. So maybe he would be able to--
--
    Colonel Deacy. That is specific, 130.
    Mr. Shays. OK. And only in those sites can you access the 
information, correct?
    Colonel Deacy. That is the way the system is configured and 
our security controls tend to ensure that. There is no 100 
percent security.
    Mr. Shays. My understanding is--I mean, I--when we started 
this hearing, I saw, Anti-Drug Network/Nigeria Crime 
Initiative. The reason why we took Nigeria as a pilot program 
is that Nigeria seemed to interface the--their activities 
interfaced a whole host of different agencies.
    Right, Mr. Swartz?
    Mr. Swartz. Yes, sir. That is certainly one of the reasons. 
It seemed like a logical pilot project simply because there 
were a number of different law enforcement agencies that dealt 
with one aspect or another of the problem.
    Mr. Shays. I am unclear as to whether this was 
administrative driven or legislatively driven, this effort.
    Mr. Swartz. The ADNET itself, as I understand it, Mr. 
Chairman, was legislatively driven. And then there were 
administrative followups that made ADNET into the Anti-Drug 
Network.
    The Nigerian Organized Crime Initiative, my understanding, 
was driven largely in response to PDD-42 and in response to the 
escalation of Nigerian organized crime, building upon work that 
had already been done by law enforcement agencies, including 
through interagency task----
    Mr. Shays. Should I make an assumption that basically this 
was not something that really came from the Department? I mean, 
right now, candidly--and this is not to beat up on anybody, but 
this program is stalled.
    It is not--and my wife works for the Peace Corps and she 
has an important position there. But we don't have a Director 
of the Peace Corps, and certain things aren't happening at the 
Peace Corps until you get a Director.
    Is some of what we are seeing here the result of just key 
people not being there?
    What--how should I interpret this with--first off, do you 
agree that we are not moving ahead, full speed ahead?
    Mr. Swartz. Speaking for the Department of Justice, I think 
it is fair to say that the transition from one administration 
to the next has led to the need to reassess how we go forward 
with this initiative.
    In terms of being stalled, I think it is still the case 
that the Nigerian Organized Crime Initiative on ADNET continues 
to be used. As I mentioned in my testimony, there are 
approximately 1,000 hits per month that are--that are now--
queries being made on the network.
    Mr. Shays. But that system is only as good as what comes 
into it.
    Mr. Swartz. That's correct.
    Mr. Shays. You know, I get the sense--I was thinking that 
maybe we should have had the FBI and the DEA here too, but 
Justice--and the INS here. But basically Justice has decided to 
speak through you on this issue.
    And, I--we don't have the sense that there is the kind of 
cooperation from some of these departments as there--agencies 
as we would like.
    Mr. Swartz. I would say, from the Department of Justice's 
perspective, the primary issue now confronting the Department 
is the uploading of full text reports, 302s in the case of FBI 
and otherwise, and how that should go forward, what the utility 
of that is.
    That is one thing that the Department does want to study, 
largely because the resources that are--need to be devoted to 
that are extensive. As the basic policy establishing ADNET 
makes clear--excuse me, the Nigerian Crime Initiative on ADNET 
makes clear, there are a number of items that have to be vetted 
in each report before it can be uploaded to ADNET. That does 
take a significant amount of time and resources.
    But I do want to make clear that the Department is not 
wavering in its desire to fight Nigerian organized crime. The 
question is only what is the most effective use of our 
resources and should ADNET be moving more toward an indexing 
system for this system----
    Mr. Shays. And you are talking about Nigerian crime. I am 
thinking of this as a system that was a pilot program to 
demonstrate that we could do what logically seems to me to be 
appropriate; and that is, to have different law enforcement 
agencies share information, which they are very reluctant to 
do.
    Let me just get in with some of these questions in some 
sense of order.
    To what extent are the member agencies fully committed to 
funding participating and sharing data with ADNET/NCI? And I 
would like to ask you that question, Mr. Swartz. I mean, to 
what extent are they fully committed?
    Mr. Swartz. I think it is fair to say within the Department 
of Justice now, the various law enforcement agencies, there is 
not unanimity as to the utility of funding ADNET, the ADNET 
portion of the Nigerian Crime Initiative at its current levels.
    Again, it is a question of each agency trying to balance 
its resources, not----
    Mr. Shays. But they have the ability not to fund it if they 
don't want to?
    Mr. Swartz. That is a question that the administration is 
considering, whether each agency--how it should be required to 
go forward with regard to funding this.
    Mr. Shays. Why do FBI and DEA have zero inquiries into 
ADNET and NCI for over the last few months? They had 
practically no inquiries.
    Mr. Swartz. I believe, Mr. Chairman--I can go back and 
determine this directly from the DEA and FBI, but my 
understanding is, it is a result of whether or not their 
particular investigations led them to make use of the data base 
for any such queries.
    Mr. Shays. Say that last thing again, please.
    Mr. Swartz. It would be a question of whether or not the 
investigations they are conducting led them to make inquiries 
on the data base.
    Mr. Shays. Or is it that they just simply don't think there 
is information in there that would be helpful, or is it that 
they think that they have the information, which they are not 
sharing? If they are not making inquiries, are they also 
providing data to this system?
    Mr. Swartz. Well, the FBI has, in fact, uploaded full text 
records in many cases.
    Mr. Shays. On a timely basis?
    Mr. Swartz. They have been doing it on a timely basis. I 
think the question is what to do on a going-forward basis, 
whether they should be going to a pointer index system rather 
than loading full text records. But I think their record in the 
past of loading such records has been one of going forward.
    Mr. Shays. So what agencies are participating fully and 
what agencies aren't, with the Nigerian Crime Task Force 
locations?
    Mr. Swartz. In the task force locations?
    Mr. Shays. Yes.
    Mr. Swartz. Perhaps Secret Service could address that.
    Mr. Townsend. Mr. Chairman, I can go site by site if you 
would like the participants.
    The New York field office, there are 22 full-time Secret 
Service special agents, two from the Postal Inspection Service, 
one from the FBI, one from the DEA, one from the INS and one 
from the Social Security Administration, OIG. Those are the 
full-time participants.
    Would you like me to continue?
    Mr. Shays. Who is left out?
    Mr. Townsend. The Department of State participates on an ad 
hoc basis, which is allowed by the MOU.
    And additionally there are full-time local police officers; 
of course, we are speaking of the Nigerian Crime Initiative. 
Due to security clearance issues, their access to ADNET is 
limited. In New York, it is three from the NYPD.
    I have that additional information which I can submit for 
the record or give it to you now.
    Mr. Shays. So who, in your mind, is left out?
    Mr. Townsend. Well, in the case of New York, that is a 
pretty comprehensive view of Federal law enforcement. I think I 
named pretty much all of the major players there.
    Mr. Shays. OK.
    What is DOJ's program plan for expanding ADNET terminal 
installations, domestically and overseas?
    Mr. Swartz. The expansion of the Nigerian Organized Crime 
Initiative/ADNET site is one that is established not simply by 
DOJ, but it is part of the MOU. The memorandum of understanding 
called for 12 task force sites, five headquarters sites and one 
site abroad. In fact, my understanding is that we have had 
eight sites installed, to date, according to DISA, and eight 
headquarters sites. And abroad as I mentioned, one in Nigeria, 
one in Ghana.
    Mr. Shays. Let me just conclude, Mr. Swartz, with this 
first round, then go to Mr. Gilman.
    You are here, but the FBI and the DEA aren't here. I am 
just curious to know why there is not participation on their 
part. I would think they would be wanting to participate more 
than anyone else.
    Is it that they feel that the information that they can 
get, they already have; that they are basically the in-puters 
and not that they don't see much plus in utilizing this 
information?
    Mr. Swartz. I do want to make clear that the FBI and the 
DEA have participated in the past, both financially and in 
records being supplied to the system.
    I do think that the usefulness of this system to each 
agency will depend in part, as you suggested, on whether the 
agency believes that it has the records that it already needs 
for the particular aspect of the Nigerian organized crime that 
it is dealing with.
    But again, as Mr. Townsend has suggested, the FBI, and in 
some cases, the DEA do participate in task force activities and 
are participating through other means as well.
    Mr. Shays. Is this a good program, Mr. Swartz?
    Mr. Swartz. Again, I think it is important to distinguish 
between the two programs. I think that the Nigerian Organized 
Crime Initiative, that is the idea of task force, is essential. 
I think that all Federal agencies would agree that we need to 
engage in information sharing; similarly, I think that the idea 
of ADNET, of information sharing as you suggest, is a very 
important one.
    And this system is a powerful one. I think the issue that 
we face, that critical issue that I have seen with regard to 
this, is how you effectively make access available to the 
preexisting data bases in each Federal law enforcement agency 
and whether, because of constraints required by Rule 6E, grand 
jury materials or privacy----
    Mr. Shays. Privacy and what was the other one?
    Mr. Swartz. Rule 6E, the grand jury secrecy issue, the 
Privacy Act, questions that may go to confidentiality of 
informants, whether it is necessary, as has happened with this 
initiative, for each record to be vetted, if you will, to be 
cleared before it is put into a separate data base that can be 
accessed to the initiative. That is a time-consuming and 
expensive operation, one that I think that the administration 
has to consider as to whether it is the most effective way to 
share information or whether, alternatively, we might think of, 
for instance, an index system.
    But, again, this may be something that the Secret Service--
--
    Mr. Shays. Let me just ask one last question. I am sorry, 
but is this system totally and completely secure, or are there 
concerns that it can be compromised; and who would be prepared 
to answer that?
    Colonel Deacy. Sir, security is something of a risk 
management endeavor. We endeavor for 100 percent security, but 
you are never sure of what the enemy's--for example----
    Mr. Shays. If someone on the outside were to look at this 
system, would they say this is an easy system to penetrate?
    Colonel Deacy. No, sir.
    Mr. Shays. OK. Even though we have terminals so many 
different places.
    Colonel Deacy. That is correct. They would not say it is an 
easy system to penetrate.
    Mr. Shays. OK.
    Mr. Gilman, would you like the floor?
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank you 
for conducting this hearing. The state of the Federal 
interagency data-sharing program is important to all of us, and 
as a former chairman of our International Relations Committee, 
I was in complete agreement with President Clinton's decision 
declaring international crime a threat to our national 
security, and threats posed from transnational criminal 
organizations, including the Nigerian heroin traffickers, South 
American drug cartels, Russian organized crime and Asian triads 
were and still are great threats to our Nation.
    Accordingly, I applauded the President's decision to 
increase interagency cooperation against both these 
organizations and those engaged in money laundering.
    In the 5 years since the issuance of the Clinton Executive 
order, the process of fostering greater interagency 
information, interagency communication has been with mixed 
results while some progress has been made with the creation of 
an Anti-Drug Network, ADNET, data base to share interagency 
information, these efforts have not realized their full 
potential, and greater interagency cooperation has been impeded 
by traditional jurisdictional turf battles, legal challenges, 
including privacy, the civil rights issues, bureaucratic 
inertia, high turnover rates among personnel and funding 
problems from the participating agencies.
    Despite these ongoing problems, the challenges posed by 
transnational criminal organizations remain. If anything, these 
entities are as dangerous today, if not more so, than they were 
back in 1996 when that Executive order was issued.
    It is gratifying, Mr. Chairman, that this subcommittee has 
had the opportunity to bring some experts in on the front lines 
in order to review the status of interagency data-sharing and 
our progress in interagency cooperation can be improved.
    Let me ask our panelists. Do you see the need for some 
central authority right now to review how more effectively we 
can have interagency sharing of information?
    Mr. Swartz.
    Mr. Swartz. Thank you, Mr. Gilman.
    Certainly the Department of Justice believes that it is 
necessary internally to assess the various means of interagency 
sharing, of which ADNET, of course, is one both with regard to 
its Nigerian crime aspect and more broadly as we use it for 
other aspects, including the anti-drug aspect.
    But we have, of course, in the context of the drug 
interdiction work, have been building the strategy for 
interagency sharing, and that is certainly one area that we 
believe that the Department should assess on an ongoing----
    Mr. Gilman. Well, have you been using that? Beyond Nigeria 
has that been utilized?
    Mr. Swartz. Yes, ADNET does have the capacity and is used 
for secure communications in other contexts for law enforcement 
purposes, and began, in its essence, as an anti-drug network.
    Mr. Gilman. Do you supply information to DEA, for example?
    Mr. Swartz. Well, through ADNET--and again DISA can correct 
me, but my understanding is that ADNET can be used to access 
other preexisting law enforcement data bases such as EPIC if 
there is, in fact, a clearance for the particular user. So it 
is in essence, ADNET is basically a framework through which law 
enforcement data bases can be accessed. In that regard, it's an 
extremely powerful device for law enforcement.
    Mr. Gilman. So all Federal law enforcement agencies can 
make use of ADNET?
    Mr. Swartz. If they have the proper clearance and proper 
interconnections. And, again, some law enforcement agencies are 
moving to make sure that they do have access to ADNET.
    Mr. Gilman. Well, are there some that do not have that kind 
of proper equipment?
    Mr. Swartz. My understanding is that the--and, again, I can 
be corrected--that the headquarters operations of Federal law 
enforcement agencies all do have ADNET access and that a number 
of field offices of different law enforcement agencies have 
ADNET access as well.
    Mr. Gilman. Are there some that do not? Is there something 
that your agency can do to help them acquire that ability?
    Mr. Swartz. I would have to take that question, and I'll 
answer it for the record.
    Mr. Gilman. Mr. Townsend, my question about whether there 
should be some sort of central oversight.
    Mr. Townsend. Thank you, Mr. Gilman.
    Two things strike me here. We are talking about two 
separate but related issues, the ADNET system and its use in 
the Nigerian Crime Initiative itself----
    Mr. Gilman. Let's not just concentrate on Nigeria. But what 
about for all the law enforcement people?
    Mr. Townsend. Well, clearly information sharing is where we 
have to get stronger in law enforcement and----
    Mr. Gilman. Well, then should there be some central 
oversight agency to do that?
    Mr. Townsend. Sir, my response to that would be, we in the 
Secret Service would look for commitment at the departmental 
level for law enforcement agencies' participation to be 
mandated in this program, if that were the desire of that 
department.
    Mr. Gilman. Well, here we have an Executive order going 
back to 1996 by President Clinton asking that this be done, and 
apparently it hasn't been fully carried out. What do you think 
is needed to do that?
    Mr. Townsend. I would say that commitment at the 
departmental level for the agencies residing within that 
department.
    Mr. Gilman. And that's not there at the present time, that 
kind of commitment isn't?
    Mr. Townsend. It depends on the location around the country 
operationally. At the headquarters level, we share information 
well, and the field tends to share it well also. But the 
various departments, because of their mandates, their different 
mandates--Justice having a very wide mandate, Treasury having a 
much narrower mandate--have competing----
    Mr. Gilman. Ms. Barry.
    Ms. Barry. Yes, sir. Well, from the perspective of a 
consular officer overseas, we are working in an unclassified 
environment, and so we are really looking for tools like ADNET 
to have direct access to the records of law enforcement 
agencies. Our CLASS Lookout System points the way to the agency 
that owns the information.
    Mr. Gilman. Well, don't you with consular activity have to 
approve visas? Didn't we revise the system for you so that you 
could have information on the background of anyone applying for 
a visa that had a criminal record?
    Ms. Barry. Yes, sir. And as we have detailed, I think, in 
our written statement for the record, we receive routinely many 
records from other foreign--from the law enforcement agencies.
    Mr. Gilman. Well, wouldn't that be of help to you in that 
direction?
    Ms. Barry. It is of immense help. What happens is that when 
we get a hit, the headquarters here goes back to the owner of 
that information and provides that information, or the gist of 
it, to the consular officer in the field. Or, if we don't have 
a hard finding yet, we simply have information that points to a 
problem of concern, we point out to the consular officer lines 
of questioning to pursue or the types of evidence that would 
help us reach a final determination.
    Mr. Gilman. Well, is your system working now out in the 
field where someone applying for a visa, do you automatically 
have information on whether or not he has a criminal record?
    Ms. Barry. Yes, we do, sir. In most instances, the one 
issue that we haven't really finalized yet is a better 
information system--data-share system with the FBI for which 
legislation is required.
    Mr. Gilman. What is holding up that kind of a sharing of 
information?
    Ms. Barry. Well----
    Mr. Gilman. You don't have any criminal record from the FBI 
then; is that right? Is that----
    Ms. Barry. We don't get it on the most timely basis, sir.
    Mr. Gilman. Well, what is--how timely do you get it?
    You have a person applying for a visa. How long does it 
take you to find out whether he has a criminal record or not?
    Ms. Barry. Well, when we query the CLASS data base, it 
takes a matter of seconds to find out if there's a hit in the 
system. The NCIC data base is the one data base that we do not 
have connectivity to in the kind of real-time basis that we 
would like.
    Mr. Gilman. What would you like? How long does it take you 
to find out from the FBI whether this person has a criminal 
record? How long does it take you at the present time to find 
out whether he has a criminal record with the FBI?
    Ms. Barry. Just a minute.
    Sir, if I can distinguish in my answer between immigrant 
visas and nonimmigrant visas. When we are adjudicating an 
immigrant visa application, we have access to the NCIC data 
base. We have an FBI agent who is part of our staff at the 
National Visa Center who accesses the NCIC data base on our 
behalf and gives us information on a timely basis so that the 
adjudication of an immigrant visa application is done in a 
timely manner----
    Mr. Gilman. Let me give you a hypothetical. Assume you have 
a terrorist getting a nonimmigrant visa from you. How would you 
find out whether or not he has a criminal record?
    Ms. Barry. For terrorism, there is a very specific program 
called TIPOFF. Analysts in the Department of State and the 
Bureau of Intelligence and Research feed our data base 
regularly, and so when we get a hit in that data base for 
someone suspected of terrorist activity, we go back to the INR 
Bureau to help us determine the full information.
    Mr. Gilman. So you have sufficient information now to 
determine whether a terrorist could be given a nonimmigrant 
visa?
    Ms. Barry. Yes, sir. It's a very active program.
    Mr. Gilman. What----
    Ms. Barry. I can tell you, if I may, that----
    Mr. Gilman. Do you have any need for improving the 
information that you're getting? Is there a need for your 
getting more information for your visa people?
    Ms. Barry. We have two objectives to improve our Datashare, 
and that's to improve our access to FBI records and to improve 
our access to Customs data on serious violators.
    Mr. Gilman. What do you need to improve that?
    Ms. Barry. Well, with Customs, we believe we can work that 
arrangement out directly between the two agencies----
    Mr. Gilman. What about the FBI?
    Ms. Barry. With FBI, we understand legal opinion is that we 
require a legislative fix.
    Mr. Gilman. Have you made a recommendation with regard to 
that?
    Ms. Barry. Yes, we have, sir.
    Mr. Gilman. Who did you make that recommendation to?
    Ms. Barry. I'm sorry, sir. We have to take the question for 
details. We have submitted some legislative ideas.
    Mr. Gilman. Will you let our committee know of any 
legislation that's needed?
    Ms. Barry. We will certainly do that.
    Mr. Gilman. And will you inform the chairman of that?
    Ms. Barry. I will be happy to, sir.
    Mr. Gilman. Thank you.
    Colonel Deacy--is it Deacy, sir?
    Colonel Deacy. Yes, sir. I'm here representing DISA. DISA's 
role is to implement solutions to satisfy the valid 
requirements of the users. So on all policy questions, I defer 
to the Justice Department.
    Mr. Gilman. So you have no----
    Colonel Deacy. We have no position on that, sir.
    Mr. Gilman. Thank you.
    Just one other question.
    Mr. Shays. You always do this to me. You wait 'til the red 
light, and then you say, one more----
    Mr. Gilman. I'm sorry. All right. Go ahead, Mr. Chairman.
    Mr. Shays. No. You have one other----
    Mr. Gilman. All right. What are the Department of Justice's 
plans, Mr. Swartz, expanding your ADNET program beyond Nigerian 
crime, and such areas as Russian organized crime or Asian 
gangs? Do you have any proposal to expand it?
    Mr. Swartz. Mr. Gilman, that is one of the matters that is 
under consideration by the new administration, whether this 
pilot project has suggested the expansion to other areas----
    Mr. Gilman. What is your personal opinion? Should it be 
expanded?
    Mr. Swartz. My personal opinion, Mr. Gilman, is that the 
system needs to be considered in several different 
possibilities, one of which is an indexing system as opposed to 
a full data retrieval system, that is, a full record, simply 
because indexing is less onerous in terms of the time for 
scanning the records, for vetting them to make sure that 
materials can't be loaded into the----
    Mr. Gilman. But this system can be beneficial to all crime 
enforcement people, right?
    Mr. Swartz. There is certainly no doubt--and I do want to 
make clear that the Department of Justice strongly does favor 
interagency sharing of information with regard to fighting 
criminal----
    Mr. Gilman. I think we all favor that, but how are we 
accomplishing it?
    Mr. Swartz. And the ADNET system has, we believe, great 
promise, but there are issues, including the issues of how are 
data bases created in each agency for ADNET, and, I should add, 
issues of access, because ADNET and ADNET terminals are not 
present at every agent's desk----
    Mr. Gilman. Well, I would like to make one request. If 
there is something that this committee can do to assist in 
expanding that program, please let us know.
    Mr. Swartz. Thank you.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. I appreciate his very 
helpful questions.
    Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman, and my apologies to you 
and the panel for my tardiness this morning. If I'm going over 
some of the same ground that's already been plowed, I apologize 
for that as well.
    But, Mr. Swartz, most of the questions relative to success 
or failure here have been directed at you, and so with your 
permission, I'm going to continue with that same direction.
    Totally how many agencies are involved here?
    Mr. Swartz. I believe that the answer to that, Mr. Otter, 
is that the agencies that load on--let me find my record here. 
There are 8 agencies and 15 data bases from those agencies 
involved in providing materials for the Nigerian Crime 
Initiative on ADNET.
    Mr. Otter. We didn't come up with a specific contribution 
from each agency for the overall funding of this, but I did see 
that there were funds committed. What has been the total 
commitment of funds for setting up this project?
    Mr. Swartz. Approximately $7.5 million for----
    Mr. Otter. And is that in some way quoted back to each 
agency, or does everybody put up a certain amount of money--the 
same amount of money?
    Mr. Swartz. No. It's been assessed to each agency----
    Mr. Shays. Excuse me, Mr. Swartz. I'm really curious. What 
are you looking through?
    Mr. Swartz. These materials are NCI--excuse me, Nigerian 
organized crime metrics material to----
    Mr. Shays. I'm sorry to interrupt, but this is getting a 
little frustrating for me. This committee asked for a briefing 
and a hearing. Why were we only allowed the opportunity to have 
a hearing and not a briefing as well?
    Mr. Swartz. Mr. Chairman, I can't respond to that issue. 
The materials here are DISA materials that I'm looking at.
    Mr. Shays. So it's available to the committee, right?
    Mr. Swartz. Certainly, as far as I'm aware.
    Mr. Shays. OK. So I'd like that document.
    Mr. Swartz. Certainly.
    Mr. Shays. I mean, it's--what's--and no disrespect to any 
of the witnesses here, but we're kind of an eclectic group 
here. We don't have FBI. We don't have the DEA. The Justice is 
coming and speaking for these other agencies. I don't know why 
there was a reluctance to allow them to come testify. We have 
had more trouble putting together this hearing than we've had 
on most hearings, which to me illustrates--some people didn't 
want to come. They didn't want to talk about it. Other people 
wanted to come because they didn't want other people to come. 
And it's just--to me, it just points out what a mess this 
program is, quite candidly.
    It may be that there just is uncertainty as to where they 
go, so we're trying to be careful what we say. But you're 
looking at basically charts and figures that should have been 
provided to the committee, it seems to me, and to my knowledge 
they weren't. And it just--it makes for, one, a boring hearing. 
It makes for an uninformed hearing. We don't get the 
opportunity to really get at the nub of this. I still feel like 
we're wandering around trying to get a handle on this program. 
You may know about the program, but we don't. We don't know how 
well it is working, and, boy, I'll tell you, by the time we're 
done, we won't know much more. And I am sorry to say that, but 
that's the feeling I get, and we're all probably answering to 
higher-ups here. So I don't mean to be taking it out on you 
all, but it's just a little frustrating to me.
    I'm sorry, Mr. Otter.
    Mr. Otter. That's all right, Mr. Chairman. I'm the bottom 
of the political food chain here, and I understand that.
    Mr. Shays. No. You were the one who helped illustrate the 
point.
    Mr. Otter. However, the chairman's recent observations and 
actions does bring me to my next question, which is what I was 
leading up to. We've spent $7\1/2\ million. We've employed 
eight agencies, or some assets from each agency, and the 
question is at what success rate. But more importantly to me 
is--the question would be who is in charge? Who is--you've got 
eight agencies. You've got $7.5 million being spent. Who is in 
charge here? I see--and I know, having been in business, but 
also been in government a long time, that there is conflicting 
areas of whose responsibility is what and turfy and all of that 
kind of stuff, but it seems to me that if this project was 
going after an issue which is as important as I believe it is, 
that we would have set ourselves up for success rather than a 
question of whether or not we've succeeded or failed.
    So I want to know, Mr. Swartz, who is in charge?
    Mr. Swartz. Well, Mr. Otter, in the narrowest sense, there 
is a charter group on which I sit.
    Mr. Otter. A group?
    Mr. Swartz. A charter group.
    Mr. Otter. A group is in charge.
    Mr. Swartz. That's correct----
    Mr. Otter. And how many is on that group?
    Mr. Swartz. I would have to get you the exact numbers, 
though there's a representative from the law enforcement agency 
as well as the Department of Justice and the Department of 
State that sits on the charter group.
    Mr. Otter. What do you call this, a posse or what?
    Mr. Swartz. No. That would be an interesting thing to call 
it, but charter group is the name of that oversight board.
    With regard to the pilot project--and, again, I do want to 
emphasize that this was seen as a pilot project, and it is 
important to distinguish between the ADNET terminals and the 
actual creation of this network and the use of this network--or 
the terminals of this network for the Nigerian Crime 
Initiative. It is certainly the case, as the chairman suggests, 
there have been shifting in personnel over the years as agents 
come in and out, as people in the departments come in and out.
    There are, of course, always competing objectives with 
regard to the fight of international crime, but I do want to 
indicate that the fight against Nigerian organized crime is 
broader than the particular initiative on ADNET, and certainly 
the chairman--we would be glad to provide anything that we've 
been provided by DISA or otherwise with regard to the 
initiative. We're certainly not trying to keep anything from 
the committee, either the successes or failures, but I think it 
is fair to say that the Department of Justice, at least, has 
not sat down with the new administration and made an assessment 
of how this has worked over the years it's been in place, and 
it's not been that long a period of time.
    Mr. Otter. How long has it been in place? When did you 
organize the charter group?
    Mr. Swartz. The charter group, I believe, is 1998. So we're 
now reaching the end of the MOU period.
    Mr. Gilman. Would the gentleman yield?
    Mr. Otter. The gentleman yields.
    Mr. Gilman. President Clinton created that Executive order 
in 1996. It took 2 years to bring together a charter group?
    Mr. Swartz. Well, I should say that the--and, again, the 
Secret Service can comment on this as well. The interagency 
group started working on the Nigerian problem long before that, 
and, in fact----
    Mr. Gilman. Forget Nigerian problem. How long did it take 
to follow President Clinton's Executive order and put together 
some oversight that the gentleman is asking about?
    Mr. Swartz. Well, the response to PDD-42 extends far beyond 
the Nigerian Organized Crime Initiative. There are any number 
of working groups, I should stress, in any number of areas with 
regard to international crime. This is simply one aspect, one 
response----
    Mr. Gilman. But was there any oversight group appointed 
following that Executive order?
    Mr. Swartz. Well, certainly the National Security Council 
did have an international organized crime coordination group 
that followed PDD-42 and that worked on coordinating these 
issues. As well, the Departments of Justice----
    Mr. Gilman. I thank the gentleman for yielding.
    Mr. Otter. I'm reclaiming my time.
    Colonel Deacy, you obviously come from an environment which 
requires a chain of command. Do you feel comfortable operating 
in this kind of an environment?
    Colonel Deacy. Sir, on this program or initiative, we are 
comfortable because we have a program. It's funded by the 
agencies involved. They validate what their requirements are 
through whatever means, in this case a group, and we take those 
and transform that into a solution that will technically do 
that. So for us there's no ambiguity or confusion.
    Mr. Otter. Obviously there is a lot for this committee, and 
obviously there is a lot for the intent what this committee had 
or felt that they had, because I'm not sure that we've come up 
with a success number here; 1 to 10, 1 being the worst, 10 
being the best, in your estimation what has been your success 
since the charter group was formed and, I suspect, some sort of 
formal operations began?
    Colonel Deacy. Sir, as the implementor of a solution, it's 
providing a tool. We really have no opinion on success or 
failure of how that tool is used so as a corporate opinion. We 
have none.
    Mr. Otter. I see. So you're not in charge?
    Colonel Deacy. Certainly not.
    Mr. Otter. I'm still not sure who is, but I guess my 
overall question, then--perhaps I formulate this more as a 
statement, Mr. Chairman and members of the panel, than I do as 
a question, but why would we even entertain the thought of 
putting this same program into another theater of involvement 
when we don't know and we haven't achieved a level of what I 
would consider a measurable--or of success that we can at least 
brag on a little bit and say, this is what we've done?
    The other thing that I'm really conflicted about here is I 
know there is sensitive information that you all gather, but it 
seems to me like somebody's criminal record would not be 
sensitive information, and that ought to be first line--that 
ought to be the first note, and that if the county sheriff of 
Lemhi County, ID wanted to find out what somebody from 
Nigeria--whether or not because of all those letter that is 
they sent, I'm sure, out to everybody, whether these people 
were legitimate, or did they have some kind of a criminal 
record, I would think that the irrigation superintendent ought 
to be able to get ahold of that.
    Why is criminal information sensitive information? I do 
know that in most of the organizations that I've been a part 
of, knowledge is power, and that is what really concerns me 
here, and I don't like the idea of wasting $7\1/2\ million. And 
not only that, but taking agencies whose mission is required--
could be required and utilized very effectively in other areas 
of operation and put them in on something that we've operated 
since 1990--had the permission to do since 1996 and operate 
since 1998, and I really can't get a grade. Could you give 
yourself a grade, Mr. Swartz; 1 to 10, 1 being bad, 10 being 
good?
    Mr. Swartz. Mr. Otter, I think that the Department of 
Justice's perspective on this is that it is now time to think 
about a grade for the Nigerian Crime Initiative. We've had it 
in place. We've had it through the MOU period, and it's now 
time to assess where we stand.
    Mr. Otter. When you formulated the charter, did you and 
could you make available to this committee a list of achievable 
objectives for that? Did you expect to have certain successes 
on certain time lines, and if you did, could you make that 
available to this committee and what your success rate is 
there?
    Mr. Swartz. I will certainly go back and see what the time 
line is. Certainly we did have objectives with regard to the 
number of terminals being put in place and the connectivity for 
those terminals. Those objectives have been met in that regard.
    And I do want to stress that, again, I don't think this 
should be seen as money wasted, and it is money that has been 
spent to try and develop the concept, which hasn't been done 
before, of accessing each agency's data bases or a portion of 
those data bases on a particular crime area over a secure 
network. That in itself, I think, has been a useful experiment 
with lessons to be learned.
    Mr. Otter. I'm going to make you a deal, Mr. Swartz. Don't 
put words in my mouth, and I won't put words in yours. If I 
said ``wasted,'' I misspoke, and I sincerely apologize for 
that. I said ``spent.'' You said ``wasted.'' That was your 
word.
    Mr. Swartz. No. And I certainly didn't mean to suggest, Mr. 
Otter, that you said the money was wasted. I just don't want 
the committee to--the subcommittee to believe that it's----
    Mr. Otter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. Mr. Gilman, do you have some questions? Mr. 
Gilman, do you have questions you'd like to ask?
    Mr. Gilman. Well, again, from what we're hearing, it sounds 
like there is a need out there for some oversight besides the 
charter commission. Does the charter commission meet on a 
regular basis?
    Mr. Swartz. The charter group has met on a regular basis. 
It is----
    Mr. Gilman. How often?
    Mr. Swartz. It met at least, I believe, twice a year.
    Mr. Gilman. Twice a year.
    Mr. Townsend. Sir, the interagency working group has met 
every 4 to 6 weeks for the 12 to 14 months that I've been 
associated with the program.
    Mr. Gilman. Well, is that--Mr. Townsend, does that differ 
from the charter commission?
    Mr. Townsend. It does, yes. The interagency working group 
are below-policy-level players in the program; in other words, 
the people hopefully that are charged with making some things 
happen.
    Mr. Gilman. Well, the interagency working group, is there a 
primary assignment, the data exchange, the data sharing?
    Mr. Townsend. I would say that is not their primary 
assignment, although it is one key component; as I mentioned 
earlier, two sides to this, the ADNET component and the 
operational side. The Secret Service has been engaged in the 
operational side before PDD-42 in 1996. The Nigerian organized 
crime task forces that came about after the implementation of 
the interagency working group and the charter group or the 
second evolution of the Secret Service task forces that already 
existed.
    Mr. Gilman. When PDD-42 was issued, who had the 
responsibility, then, of formulating whatever implementation 
was needed? Mr. Swartz.
    Mr. Swartz. My understanding is, Mr. Gilman, that the 
Attorney General had the lead in responding to international 
organized crime issues with regard to PDD-42, and certainly a 
number of steps were taken at that time to deal and expand our 
response to international organized crime. I would stress, as I 
have in the past, this is simply one part of the actions that 
the Department of Justice has taken against international 
crime.
    Mr. Gilman. Well, did PPD 42 prescribe the necessity for a 
central agency or central authority to implement it?
    Mr. Swartz. I would have to review that. Again, I believe 
that the National Security Council, again, through its special 
coordination group, also took on a coordinating role. And I 
should say as well that PDD-42 did lead to the International 
Crime Control Strategy, which was subsequently promulgated, 
which I believe this subcommittee has a copy of or which we can 
certainly provide. But that is as you are aware, that is quite 
a complete document that discusses a number of goals and 
objectives in combating international crime----
    Mr. Gilman. What is the title of that?
    Mr. Swartz. This is the International Crime Control 
Strategy.
    Mr. Gilman. All right. And in that strategy, is there 
something about sharing data?
    Mr. Swartz. Yes. It certainly does talk about interagency 
cooperation throughout, and I should say that this crime 
control strategy, crime currently in effect, is now under 
consideration by the administration for any revisions that do 
need to be made.
    Mr. Gilman. What was the date of that document?
    Mr. Swartz. I believe it's May 1998.
    Mr. Gilman. And from the time that PDD-42 is issued, do you 
know whether any--was there any authorization or any 
implementation by any central agency of PDD-42?
    Mr. Swartz. My understanding is, Mr. Gilman, that--well, of 
course, before PDD-42 and thereafter, there were a number of 
steps taken------
    Mr. Gilman. I'm talking about from the time the Executive 
order was issued in 1996.
    Mr. Swartz. Well, my----
    Mr. Gilman. Would you tell me whether there has been any 
central authority implementing PDD-42?
    Mr. Swartz. I think that the central authorities would be 
the Attorney General, and the National Security Council's 
coordination group would have been looking at the issues 
presented by PDD-42. But, of course, the Attorney General would 
have been working and meeting with her colleagues at the time.
    Mr. Gilman. All right. So National Security and Attorney 
General worked together. What did they do to implement PDD-42?
    Mr. Swartz. I would be glad to supply to the committee any 
steps that were taken with regard to----
    Mr. Gilman. Would you do that and supply it to the 
chairman? Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Shays. Ms. Barry, I'm----
    Ms. Barry. Yes, sir?
    Mr. Shays. Bottom line, you're not inputting information--
you're not providing input, but you can draw on this 
information. You would find it helpful, but you don't need top 
security clearance. In other words, you need something, share 
data, but just tell me your perspective again on----
    Ms. Barry. Our perspective is that we work in an 
unclassified environment overseas, and given the volume of 
cases we handle, we need a very, very quick response time.
    Mr. Shays. Right.
    Ms. Barry. So basically the CLASS data base is name, date 
and place of birth of an individual and a code so when we get a 
hit, we know which agency to go to for the fuller report. So 
our officers in the field know enough in the first instance to 
suspend the case, with the general understanding of why they're 
suspending the case, and then working with headquarters back 
here and the other agencies, we provide them the fuller 
information they need to make a final determination.
    Mr. Shays. So----
    Ms. Barry. So we have a number of people at headquarters 
here who are reaching out to the law enforcement agencies on a 
regular basis.
    Mr. Shays. Is your Department finding this a helpful system 
or not? What is your message to this committee?
    Ms. Barry. Our message to the committee is that we do, in 
terms of adjudicating visa cases, rely very, very much on 
Datashare, because--as I explained to Mr. Gilman, we're very 
satisfied with the program we have to identify potential 
terrorists. It's a very robust program. Because we don't 
regularly get information from the FBI out of the NCIC data 
base, we probably--we feel less successful in stopping 
individuals of concern for criminal activities, and we are 
working on that objective.
    Mr. Shays. So your message to the committee is that you are 
a user of this system and would like to see it----
    Ms. Barry. We understand that tools for analysts to develop 
findings is very useful to us as the end user of the finding. 
So I can't speak for my colleagues who are analysts as to how 
effective ADNET has been per se as a tool, but we understand in 
general terms the use of tools for our work overseas.
    Mr. Shays. Mr. Townsend, the--you described the New York 
office where you felt--you have 6 task forces, to go to 10, 
correct?
    Mr. Townsend. Presently, sir, we have 10 task forces, but 
not all of them have ADNET terminals. They have 10 task forces 
working--that focus primarily on----
    Mr. Shays. Six have the terminals?
    Mr. Townsend. There are terminals in New York, Dallas, 
Chicago, Houston, Atlanta, Washington. The Baltimore task force 
terminal is expected late this year, and we'll also----
    Mr. Shays. And we have terminals in other areas that are 
secured and so on?
    Mr. Townsend. Yes, sir. There are----
    Mr. Shays. There have been 30?
    Mr. Townsend. There are terminals in Secret Service 
headquarters, FBI headquarters and so forth.
    Mr. Shays. You describe the cooperation and involvement in 
New York. Tell me what type of participation you have in 
Houston and Atlanta.
    Mr. Townsend. Sir, in Houston, there are 14 Secret Service 
special agents full time assigned to the task force.
    Mr. Shays. So that's one, the Secret Service. Now the other 
departments.
    Mr. Townsend. Postal Information Service has one. The FBI 
has one. The INS has one. And the rest are local officers.
    Mr. Shays. So you don't have DEA, for instance, there.
    Mr. Townsend. We do not. And I'm sorry, Atlanta was the 
other one?
    Mr. Shays. Yeah.
    Mr. Townsend. In Atlanta there are eight Secret Service, 
one INS, one Postal Inspection Service; and on an ad hoc basis, 
one IRS agent.
    Mr. Shays. So no FBI and no DEA.
    Mr. Townsend. That's correct.
    Mr. Shays. Why, when I asked you about the cooperation, why 
did you pick New York as the one you wanted to----
    Mr. Townsend. Well, it just happened to be first on my----
    Mr. Shays. Because it's the one where you have the greatest 
cooperation, right?
    Mr. Townsend. Well, it's first on my list. That's what I 
looked at, yes, sir.
    Mr. Shays. OK. I'm just trying to understand. And the task 
forces do what?
    Mr. Townsend. The task forces focus on operational issues 
and Nigerian crime. Reports come in in a variety of manners, 
either through the public, from local police officers, all the 
various ways crime gets reported. We target those cases, the 
criminal activity, that is, based on consultation with our task 
force partners, the U.S. attorney, or the district attorney, 
and make criminal cases.
    Mr. Shays. Mr. Otter, you had a question you wanted to----
    Mr. Otter. Yes, Mr. Chairman.
    I'm going to ask Mr. Townsend. I picked on you too much, 
Mr. Swartz.
    Mr. Townsend, do you know if the organization has an 
organizational chart that you could supply the committee that 
kind of goes from the charter group to the interagency working 
group to kind of give us a flow of the information and a flow 
of control; and if we could center in on really who we could 
get these answers from, is there one person or two or three 
people, maybe, that we could get these answers?
    Mr. Townsend. Sir, I'll have to check and take for the 
record and supply to the committee if there is a chart with 
regard to the interagency working group.
    I can tell you that in our task forces that operate--well, 
I shouldn't say our task forces. The task forces that the 
Secret Service hosts where the terminals happen to be located, 
they're organized along part military lines and squads and so 
forth, and we could provide that to the committee.
    Mr. Otter. So it would be a normal practice in the agency 
that you're involved in and with to establish an operations 
chart?
    Mr. Townsend. Well, I don't know----
    Mr. Otter. A chain of command or something.
    Mr. Townsend. Within the Secret Service, yes. I couldn't 
speak for the other agencies.
    Mr. Otter. Thank you.
    That's all, Mr. Chairman.
    Mr. Swartz. Mr. Otter, at the risk of----
    Mr. Otter. Oh. I guess I will pick on you.
    Mr. Swartz. Certainly we can provide a list of the charter 
group members, of which I sit on their chair, as I said, and of 
the interagency working groups under the charter group. So we 
can provide that.
    Mr. Otter. Do you have an operations chart, an 
organizational chart of who is a part of it and what the 
chain--if there is a chain of command, what the chain of 
command is?
    Mr. Swartz. I'm going to see if there is a chart per se. We 
certainly have a list of the members of the various working 
groups and who chairs those groups.
    Mr. Otter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilman. Mr. Chairman.
    Mr. Shays. Sure.
    Mr. Gilman. Just one question of our good State Department 
representative. Let me just ask our counselor, Director who is 
here, and you've given a good--Catherine Barry, you've given a 
good insight to the problems you confront out there on the 
field. You say it was--wasn't until May that you finally were 
getting some decent exchange for your consular offices; is that 
correct?
    Ms. Barry. No, sir. We've had Datashare for many years to 
one degree or another. I'm not sure--oh, in May, I believe I 
said we've replicated data back here.
    Mr. Gilman. In your testimony, you're saying for the first 
time since May, you're beginning to get a decent exchange 
between the main office and your office. I think I saw that in 
your testimony. But at any rate, you're making some 
recommendations. You're saying Customs is taking steps to share 
their serious violator data. How far along are they with that--
taking the steps to do that?
    Ms. Barry. One moment, please, sir.
    Sir, we have an agreement in principal with Customs. We are 
discussing technical issues at this time to finalize our 
agreement.
    Mr. Gilman. How long will it take to iron those out?
    Ms. Barry. I can't estimate at this time, sir. I'll take 
the question, if you--if you're willing----
    Mr. Gilman. Well, if it can be of assistance in expediting 
that, we'd welcome your telling us if you're running into any 
roadblocks or delay.
    Ms. Barry. I certainly appreciate that, sir. We view this, 
as I said, as simply technical people getting down and figuring 
out how the data shall actually be accomplished, but----
    Mr. Gilman. Then you're also saying Consular Affairs 
already exchanges data with DEA, but we want to improve the 
efficiency of that exchange closer to real-time rather than a 
slower tape exchange. What is taking--has the problem been in 
that delay?
    Ms. Barry. Again, sir, it is a technical issue on the 
interface that the two agencies would use to accomplish that. 
For further details, I would have to take the question. I am 
the worst person in the word to explain technical issues.
    Mr. Gilman. Who is your assistant that is giving you the 
information? Do you want to come to a mic and identify 
yourself?
    Mr. Brennan. Mr. Gilman, I'm John Brennan. I am with the 
visa office. I work for Catherine Barry and the interagency----
    Mr. Gilman. Right. What is taking so long to iron out these 
interagency problems?
    Mr. Brennan. Well, it's really not taking very long, in the 
sense that we only just started discussions in the past couple 
of months with DEA as to establishing an electronic means to do 
this. So there is no real delay. We expect it to work out in a 
reasonably timely fashion.
    Mr. Gilman. All right. Could you specify for this committee 
any of those technical difficulties that may be delaying an 
adequate change of information and see if we can be of any help 
to you?
    Mr. Brennan. OK, sir. I will.
    Mr. Gilman. Now, in----
    Mr. Shays. Excuse me. I just want to interrupt. Would you 
identify yourself for the record, again, and give your card to 
the transcriber here?
    Mr. Brennan. Certainly I will. My name is John Brennan. I'm 
in the Department of State in the visa office and the 
interagency systems liaison unit of the visa office.
    Mr. Shays. And if you would, make sure that you--and I want 
you to know that you have the same status as Senator Byrd. I 
have sworn in Senators, Cabinet officials, Members, and the 
only one I chickened out was when Senator Byrd came, I couldn't 
swear him in, and you're the second one. So you will now carry 
that status. Two people in my 7 years have spoken before this 
committee and not been sworn in.
    Mr. Brennan. I apologize for that breach of etiquette.
    Mr. Gilman. Please don't leave the mic yet.
    Ms. Barry said, in regular consultations with the INS, 
we're working to upgrade this----
    Mr. Shays. I'm going to ask the gentleman just to raise his 
right hand.
    [Witness sworn.]
    Mr. Shays. Thank you. Let me just explain that when we do 
swear in people, we swear in everyone so someone doesn't say, 
why me and not someone else? And, you know, obviously we don't 
always need to swear someone in, but this way we cover it. 
Thank you. I'm sorry.
    Mr. Gilman. Thank you, Mr. Chairman.
    Ms. Barry said in regular consultations with INS, we're 
working to upgrade Datashare to ensure Lookout data quality and 
improve the speed of transmission of departure and deportation. 
Is there any reason why that is being delayed?
    Mr. Brennan. We have Datashare mechanisms that work with 
INS at--some of them at virtually real-time speed, but INS also 
has many layers of data within it, and the layer at which we 
take data, the interagency border inspection system, doesn't 
always contain all the data that INS has that we would like on 
a timely basis. So we're working with INS to get some other 
portions of data that it has, for instance, data on people who 
are being deported, added to their systems, either added to the 
interagency border inspection system more quickly or provided 
to us in some other manner so that we will have it available 
more quickly. It's a timing matter mostly.
    Mr. Gilman. It's Mr. Brennan, right?
    Mr. Brennan. Yes, sir.
    Mr. Gilman. Mr. Brennan, if you would again notify our 
committee of anything we can do to expedite those problems. If 
it's a need for more equipment or cutting through some of the 
red tape, we'd welcome knowing about that.
    Mr. Brennan. Very good. I might add there's really not a 
need for more equipment. We're in pretty good shape in that 
regard.
    Mr. Gilman. And then Ms. Barry went on to say, we believe 
interagency data sharing, when more fully deployed, will very 
effectively deter aliens who are counterfeiting documents and 
making fraudulent items.
    Is there something we can do to make this more effective?
    Ms. Barry. Well, sir, we're very pleased with the initial 
results of the replication of data, because everyone's data is 
now feeding into Washington, and Washington is making it 
available to officers overseas. And we've begun a pilot with 
INS. If you are in Paris talking to an individual, and you have 
some concerns about the quality of the visa that he's shown 
you, you can now make a query and look at the original visa 
issued in Bangkok, let's say, compare the photo of the original 
visa with the individual standing in front of you, the name as 
specified in the original visa with the name as it now appears 
on the document. So we are capturing look-alikes, imposters and 
people who have somehow fiddled with the information on the 
original visa in a much more effective manner.
    Mr. Gilman. Ms. Barry, you went on to say, since ADNET is a 
compendium of law enforcement data, wouldn't this tool be 
useful in each visa unit overseas? What prevents that from 
happening?
    Ms. Barry. Primarily because we're in unclassified 
workspace. We could not have access to sensitive law 
enforcement data----
    Mr. Gilman. Mr. Swartz, what can we do to improve that 
situation?
    Ms. Barry. If I may finish?
    Mr. Gilman. Go ahead. I'm sorry.
    Ms. Barry. I'm sorry, Mr. Gilman. Other members of the U.S. 
mission overseas may, in fact, have access to sensitive 
information, and through the country team mechanism and other 
coordinating mechanisms of an Embassy, consular officers can 
consult sensitive information through--with the help of their 
colleagues.
    Mr. Gilman. That sounds a little complicated and burdensome 
and time-consuming.
    Mr. Swartz, what can we do to assist our consular people 
who are out there on the front line to screen the people we 
don't want coming into the country?
    Mr. Swartz. One thing, Mr. Gilman, that the Nigerian 
Organized Crime Initiative has done through ADNET is placed 
five ADNET terminals in two locations in foreign countries in--
--
    Mr. Gilman. Again, concentrating on Nigeria, we're talking 
about across the board, throughout the world.
    Mr. Swartz. Yes. I certainly understand that. The way it 
would have to be done to make use of ADNET would be to have a 
similar program of either placing ADNET terminals in our 
consulates or Embassies.
    Mr. Gilman. But what can we do to accomplish that?
    Mr. Swartz. That, I believe, would be a question really of 
State Department's availability and funding.
    Mr. Gilman. Well, I don't know. Is it just funding, or is 
there some restriction? Ms. Barry?
    Ms. Barry. I think we're talking about a methodology of 
working a case. What we're trying to give consular officers is 
a name check system that is very robust. But----
    Mr. Gilman. Well, ADNET would help you with that, wouldn't 
it?
    Ms. Barry. The name check is only the name, the identifying 
name, and date and place of birth and a simple code to explain 
that it's somewhat of concern. The follow-on information does 
come differently and needs to come differently, because 
otherwise we would slow down the entire visa adjudication 
function.
    Mr. Gilman. But ADNET would help you do that; would it not?
    Ms. Barry. Our methodology is to suspend a case of concern 
and then take the time we need to adjudicate that, using all 
the tools available to us.
    Mr. Gilman. How effective has been your visa VIPER program 
to proactively get the names of the bad guys into the data base 
system for visas?
    Ms. Barry. We certainly routinely receive submissions from 
country teams around the world for visa's VIPER there is a 
requirement that every post respond--report one way or the 
other on a quarterly basis.
    Mr. Gilman. And has it been effective?
    Ms. Barry. I believe so, sir. We have many names in the 
data base based on visa's VIPER submissions.
    Mr. Gilman. Now, Mr. Swartz has said to get the ADNET 
available to you, that's up to the State Department. Is there 
any restriction on your getting that kind of a system put in 
place?
    Ms. Barry. My colleagues in the Bureau of Diplomatic 
Security do have access to ADNET. I would have to take the 
question for further comments from them and----
    Mr. Gilman. Would you do that?
    Ms. Barry. Yes, I will.
    Mr. Gilman. And let us know if there's any restriction or 
obstruction for utilizing ADNET in your consular offices.
    Thank you very much. And thank you, Mr. Chairman.
    Mr. Shays. Mr. Schrock.
    Mr. Schrock. I'm just trying to get caught up.
    Mr. Shays. I was thinking that, and I do have a quick 
question or two. Is it fair to say that NCI is the first 
attempt to share law enforcement data on one system? Is that 
fair to say, Mr. Swartz?
    Mr. Swartz. I believe that's correct, Mr. Chairman.
    Mr. Shays. And from my standpoint--and I admit it's 
somewhat of a superficial look, but it logically says, well, 
that makes a lot of sense. We used obviously a case in which 
Nigeria seemed to interface with so many different agencies, so 
we had task force--we had ADNET before NCI. ADNET was a system 
in place.
    Mr. Swartz. That's correct.
    Mr. Shays. NCI then basically--we had task force before we 
had ADNET NCI.
    Mr. Swartz. That's correct.
    Mr. Shays. And we kind of combined the two. So I figure 
there are two circles. There's ADNET, and there's NCI, and they 
kind of overlap, and we've got this thing. And we're kind of--
I'm wondering and my staff is wondering if these circles aren't 
kind of going in this direction.
    From my standpoint, I would almost give a congressional 
Medal of Honor to some--I guess it's called a Medal of Honor to 
someone who could get the different law enforcement 
organizations to share data. I mean, when you get the FBI and 
the DEA and the Secret Service and to some extent INS, 
everybody willing to share data, boy, hats off to the person 
who can do that.
    So, you know, I consider this a big deal. I mean, I 
consider--but--so I guess what I want to understand--maybe, Mr. 
Townsend, you could respond--tell me--maybe it's the obvious, 
but tell me why there is a reluctance; why is it like pulling 
teeth? It's not something that someone runs to the dentist's 
office to do, right? It sounds like there's--why do people have 
to be made to do what seems logical?
    Mr. Townsend. Well, I think, Mr. Chairman, that there is a 
lot of information sharing going on, and I don't mean to answer 
your question by saying there's not a lot of room for 
improvement. There is. Law enforcement is somewhat unique with 
regard to information sharing. There are source issues. There 
are issues with regard to undercover personnel, issues that 
those of us who work in that environment and have worked in 
that environment hold close to our hearts and take it very 
seriously. Clearly your point is well taken.
    In the law enforcement system which we have decided that's 
best for our country--that is, one which has many different 
Federal agencies and some thousands upon thousands of local 
agencies, as opposed to the model where there's one national 
police force and perhaps no local agencies--this is one of the 
consequences of that. Not that we shouldn't do better. We can 
do better. But there are--it is an extremely complex issue.
    Mr. Shays. Yeah. It is extremely complex, and I'm trying 
to--I guess in one way it's very simple, in one sense, but I'd 
almost felt like I need to filibuster, because I don't want 
this hearing to end before I have a sense of a handle on this. 
I was thinking if I were you, Mr. Swartz, I wonder--all of you 
kind of gave your--kind of some details about the program and 
how it's working, and I'm wondering if I were in your shoes, if 
I wouldn't have come in and said, this is an extraordinary 
program. It's exciting in terms of its potential. We've had 
some successes, some failures. We've really succeeded in doing 
this, but we've failed to do this. And I would have thought, 
Mr. Townsend, you would have done almost the same thing; really 
great success, a failure here, this is what we're working on. 
So I get the sense that there's really not a buy-in yet to 
this, and there's not a sense that the program is working all 
that well.
    Mr. Townsend. May I respond, Mr. Chairman?
    Mr. Shays. Sure.
    Mr. Townsend. With regard to the Secret Service and the 
Nigerian crime issue, there certainly is an agency buy-in. We 
were among those, as I mentioned in my oral statement, that 
identified the issue of Nigerian crime in the 1980's, and not 
to diminish the efforts of our Federal law enforcement partners 
and our State law enforcement partners, but certainly we have 
been among those at the forefront, and I think everyone would 
agree with that assessment.
    So there certainly is a commitment, and there are 
successes, which I have available for the committee, should you 
care to hear them now, or for the record. Operationally, there 
are successes out there. We are making cases that make a 
difference and the U.S. attorneys in their districts want to 
have and that real people are affected by. So the Secret 
Service, you know, is committed to the program. There are--I 
mean, there are issues. It's a complex situation.
    Mr. Shays. But, you know, let me ask you, why is it 
complex?
    Mr. Townsend. Well, sir, I think to some degree for the 
things I have stated, I mean, we are a country with a variety 
of law enforcement agencies, and these are very real----
    Mr. Shays. Just take the Federal. Why is it complex for the 
Federal Government to work together to share data that could 
help get at terrorists, help get at criminals, help make sure 
that people don't get in this country, shouldn't get into this 
country?
    Mr. Townsend. I have no quibble with that, sir.
    Mr. Shays. OK. Why do I say that's--I mean, I did say it 
earlier that it's complex, and I was trying to give my excuse, 
because I feel so--I don't feel that I'm getting it. So I like 
to think it's complex and that I'm not dumb.
    Anyway, I still don't understand why it's complex.
    Mr. Townsend. If I may?
    Mr. Shays. Sure.
    Mr. Townsend. With regard to the Secret Service, we have 
uploaded the entirety of our master central index with regard 
to Nigerian crimes since the start--every 30 to 60 days.
    Mr. Shays. OK. So by complex, it's just a hell of a lot of 
to work to get that done into the data system. You've got to 
put this information into the system so others can access it.
    Mr. Townsend. It was a lot of work, which we accomplished 
and continue to accomplish.
    Mr. Shays. I agree with that, but complex would not be the 
word I described, but pain in the neck or something stronger, 
taking resources from another place, all of those things I 
agree with; complex, no.
    Mr. Swartz. If I may, Mr. Chairman. One additional 
complexity does arise when you go beyond the index system that 
Secret Service has put on, and I think Mr. Townsend referred to 
this already. In one document that the--one of the NCI 
documents that was produced, I know, to the subcommittee, 
there's a list of the steps that have to be taken by each law 
enforcement agency once it's moving toward full text loading of 
documents, which is what the FBI and some other agencies have 
done. And there--again, for some of the reasons that Mr. 
Townsend is suggesting, you do begin to reach new levels of 
complexity because of grand jury secrecy rules, protection of 
sources, limitations on how to----
    Mr. Shays. OK. So what document you can provide, then that 
becomes some--that does get into--the complexity----
    Mr. Swartz. Right. Which I think goes back to the earlier 
discussion that was held with the subcommittee earlier today 
with regard to how this should move, whether----
    Mr. Shays. Some information that just simply is not going 
to be provided, so no one should think it's comprehensive. 
There's some information privacy issues, some documents that 
may be classified, some documents that--well, some classified 
documents can go in there, obviously.
    Mr. Swartz. Yes. I think that buy-in, though, from the 
agencies turns in part on the amount of time and resources that 
are being expended for that kind of getting of complete, full 
text records, as opposed to an index system, and I think that 
is one of the things that the Department of Justice will look 
at for data sharing in the future.
    Mr. Shays. Right. And I would accept this if you said, you 
know, it takes a lot of--it takes valuable time in order to do 
this; it's a money question, and so on. Those are helpful to 
us. Saying it's complex prevents me from understanding. 
Explaining why it's difficult, explaining that there are 
financial challenges, explaining there are manpower, then 
that's an instructive, educational and believe it--you know, if 
you tell us the truth, then actually we might do something 
intelligent, and that's helpful. Thank you.
    Mr. Schrock, do you--I'm kind of done.
    Mr. Gilman, I really appreciate your questions. Are you all 
set? Is there any question that you would like to respond to?
    Mr. Deacy, is there anything you'd like to say, or Ms. 
Barry, in the conclusion?
    Colonel Deacy. No, sir.
    Mr. Shays. Well, we appreciate you all being here, and 
we'll get a handle on this, and I thank you for helping us in 
that process. This hearing is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
